LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 11, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

KIMBERLY WATSO, INDIVIDUALLY AND ON BEHALF OF C.H. AND C.P., HER
MINOR CHILDREN; KALEEN DIETRICH V. TONY LOUREY, IN HIS OFFICIAL
CAPACITY AS COMMISSIONER OF THE DEPARTMENT OF HUMAN SERVICES;
SCOTT COUNTY; JUDGE JOHN E. JACOBSON, IN HIS OFFICIAL CAPACITY;
TRIBAL COURT OF THE SHAKOPEE MDEWAKANTON SIOUX (DAKOTA)
COMMUNITY; JUDGE MARY RINGHAND, IN HER OFFICIAL CAPACITY; TRIBAL
COURT OF THE RED LAKE BAND OF CHIPPEWA INDIANS

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 3,531 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

